 Pension Benefit Guaranty Corporation
      Office of Inspector General
             Audit Report




   Former Director’s Involvement in
  Contracting for Investment Services
Blurs Roles and Raises Fairness Issues




              May 15, 2009
                              AUD-2009-5 / PA-08-63-1
                             Pension Benefit Guaranty Corporation
                                                                 Office of Inspector General
                                               1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                                              May 15, 2009

                                      MEMORANDUM AUDIT REPORT


  TO:              The Honorable Hilda L. Solis, Secretary of Labor
                   Chair of the PBGC Board of Directors

                   The Honorable Timothy F. Geithner, Secretary of Treasury
                   Member of the PBGC Board of Directors

                   The Honorable Gary Locke, Secretary of Commerce
                   Member of the PBGC Board of Directors

  FROM:            Rebecca Anne Batts
                   Inspector General

 SUBJECT:          Former Director’s Involvement in Contracting for
                   Investment Services Blurs Roles and Raises Fairness Issues

  This report describes findings identified during our ongoing audit of the Pension Benefit
  Guaranty Corporation’s (PBGC) implementation of its new Investment Policy. While
  conducting this audit, we became aware of serious allegations about former PBGC Director
  Charles E.F. Millard’s involvement in the procurement process used to select the
  investment managers responsible for executing aspects of the new policy. The objectives of
  this report include:

      •   Determining whether the Director’s1 direct involvement in the procurement process
          compromised the perception of impartiality in contracting for strategic investment
          partners;
      •   Determining whether the Director and other procurement officials made improper
          contacts with offerors during investment management source selections; and
      •   Determining whether Procurement Department standard operating procedures were
          inappropriately modified during investment management procurement.

  The report discusses our findings and recommendations to ensure PBGC develops and
  implements internal controls to foster impartiality in future procurement activities and
  compliance with existing contracting laws and regulations. Our recommendations are
  made to the PBGC Board of Directors, as the actions that are needed will require
  implementation at a level higher than the PBGC Director.

  1
    At that time we began this audit, Charles E.F. Millard was the PBGC Director. He resigned his position
  effective January 20, 2009.


OIG Report AUD-2009-5 / PA-08-63-1
RESULTS IN BRIEF

Serious questions about the integrity of the procurement process for the Strategic
Partnership contracts were raised when the former PBGC Director inappropriately
communicated with bidders during the time when such contact was forbidden by PBGC
policy and the Federal Acquisition Regulation (FAR). Phone records and emails show that
the former Director was communicating directly with some bidders at the same time that he
was actively evaluating their Strategic Partnership proposals, a clear violation of the
prohibition of contact with potential offerors. Further, the former Director took an
unprecedented role in the procurement process, to include serving on Technical Evaluation
Panels (TEP) to formally assess some of the same Wall Street firms with whom he was in
frequent contact; at a minimum, this violated the principle of separation of duties.
However, it should be noted that our audit did not identify evidence of criminal activity on
the part of any bidders.

The former Director was advised that his actions could cast doubt on the integrity of the
procurement process, but he did not heed these warnings. Because the former Director’s
subordinates were unable to prevent the activities described in this report and because
internal guidance could be changed by a future Director, it is unlikely that PBGC
employees can take effective action to prevent similar abuses by future Directors.
Therefore, our recommendations were made to the PBGC Board of Directors (Board), in
recognition of their important oversight role of PBGC and the PBGC Director. The Board
is the final accountability authority for PBGC activities.

The PBGC Board provided a written response to our report. That response, which is
included in its entirety as Appendix C to this report, notes that the Board will take
appropriate action in response to the recommendations. We agree with the actions
proposed by the Board and appreciate their commitment to ensuring that PBGC has the
internal controls it needs to meet its critical mission.


BACKGROUND

PBGC is a wholly-owned Federal government corporation, established under Title IV of
the Employee Retirement Income Security Act of 1974 (ERISA), with a three-member
Board of Directors comprising the Secretaries of Labor, Commerce, and Treasury. The
Secretary of Labor serves as the Board Chair. The Board establishes policy and provides
oversight to PBGC and its Director. The Pension Protection Act of 2006 (PPA 2006)
established a Presidentially-appointed and Senate-confirmed Director to administer the
Corporation in accordance with policies established by the Board. PBGC also has an
advisory committee appointed by the President to, among other things, advise on
investments.

PBGC’s By-Laws require the Board to review the Investment Policy Statement every two
years and approve the Investment Policy Statement every four years. The purpose of the
Board review is to ensure that the objectives of the Investment Policy continue to be



OIG Report AUD-2009-5 / PA-08-63-1                                                          2
aligned with PBGC operational objectives, that PBGC is implementing investment
strategies that are consistent with the investment objectives, and that PBGC’s Investment
Policy is implemented in a manner consistent with the principles of ERISA.

In February 2008, PBGC executives presented to the Board a proposed revised investment
policy. PBGC’s Board unanimously approved the policy, which is less conservative than
the prior policy and involves transferring billions of dollars from fixed income treasury
securities to marketable equities, real estate, and private equity. Our conclusions about the
implementation of the investment policy will be presented in another audit report to be
issued in the near future.

PBGC has begun the process of reallocating its $48.4 billion2 investment portfolio. While
the Corporation continues to evaluate implementation options, planned actions include the
use of strategic partners to manage portions of PBGC’s alternative portfolios and the
interim use of passive index managers. Strategic partnership contracts awarded in October
2008 called for the purchase of nearly $2.5 billion in real estate and private equity. Total
fees for the three strategic partnership contracts, over the ten year period, could exceed
$100 million.

PBGC’s procurement process incorporates a number of internal controls designed to ensure
that business is conducted in a manner that is impartial, non-preferential, and avoids
conflict of interest or even the appearance of a conflict of interest in the
Government/contractor relationship. Steps in the procurement process include
identification of the procurement requirements by the program office, performance of
market research, preparation of a requirements package, solicitation of offers,
establishment of a TEP to evaluate and report on solicitations, negotiation by the
contracting officer, legal review, and awarding of the contract.

The TEP is part of the procurement process for selection of investment managers and
advisers. This step in the procurement process is intended to ensure that impartial,
independent and knowledgeable subject matter experts at PBGC evaluate offerors’
proposals against PBGC’s stated requirements and determine which proposal represents the
best value. A TEP normally consists of three voting members, one of whom is designated
as the Chair. TEP members are generally nominated by the program office and appointed
by the Contracting Officer.


AUDIT RESULTS

Finding 1: The Former Director had Inappropriate Contacts with Bidders

The former Director violated the FAR and PBGC policy by communicating directly with
bidders during the source selection period, also known as the “blackout period.” He was
aware of the prohibition against speaking with representatives of the firms that were

2
    As of September 30, 2008.



OIG Report AUD-2009-5 / PA-08-63-1                                                          3
attempting to become PBGC’s strategic partners – an opportunity that could lead to more
than $100 million in fees and management of up to $2.5 billion in PBGC assets. As a
result, the former Director’s improper actions raise serious questions about the integrity of
the process by which the winners of the strategic partnership contracts were selected.

To maintain the integrity of the procurement, the FAR establishes certain controls over
contacts between agency personnel and offerors during the procurement process.3 In
essence, all contact between agency personnel involved in the procurement and bidders is
to go through the contracting officer; individual conversations or communications with
bidders are strictly prohibited.

The former Director was aware that he should not be in contact with bidders during the
procurement process. Prior to each TEP on which he served, he was provided a verbal
briefing. Procurement officials stated that in these verbal briefings they made clear the
rules prohibiting contact between the TEP members and potential offerors. Further, a
written memorandum which described the prohibition on contact with offerors was
provided to each member of the TEP, including the former Director. The Director of
Procurement stated that she asked each member of the TEP to read the memorandum in
front of her, so that she could be certain that each person understood the importance of
following the rules. Finally, the Director of Procurement stated that she had advised the
former Director multiple times that he should not have contact with potential vendors and
that he should cut off any ongoing contact once a Request for Proposal (RFP) was released.

The source selection period for the strategic partnership procurement began when the RFP
was issued on July 31, 2008 and ended on October 31, 2008, when three contracts were
awarded. During this 3-month communications blackout period, we identified the
following contacts:

    •    Nine phone calls were made between the former Director’s phones and Goldman
         Sachs, a firm that was awarded a strategic partnership contract to invest up to
         $700 million in private equity. Three calls were incoming calls and six were
         outgoing. Six of the nine calls were with the phone of a manager who was noted as
         a key person in the strategic partnership contract and whose involvement in bidding
         for the strategic partnership included making presentations at PBGC and in New
         York, and conducting the final price negotiations.

    •    Six phone calls were made between the former Director’s phones and BlackRock, a
         firm that was awarded a strategic partnership contract to invest up to $600 million
         in real estate and up to $300 million in private equity. The calls included one
         incoming call and one outgoing call with an unknown party at BlackRock and four

3
   FAR Part 15.303 states that agency heads are responsible for source selection. The contracting officer is
designated as the source selection authority unless the agency head appoints another individual for a
particular acquisition or group of acquisitions. FAR 15.303(c) requires the contracting officer to: (1) serve as
the focal point for inquiries from actual or prospective offerors after release of the solicitation, and (2) control
exchanges with offerors after receipt of proposals.



OIG Report AUD-2009-5 / PA-08-63-1                                                                                4
       outgoing calls to the phone of a Managing Director, who was also noted as a key
       person on the strategic partnership contract.

   •   Ten phone calls – five outgoing from the former Director’s PBGC phone lines,
       three outgoing from the former Director’s cell phone, and two incoming – were
       made during the blackout period between the former Director’s phones and a
       managing director of JP Morgan, a firm that was awarded a strategic partnership
       contract to invest up to $600 million in real estate and up to $300 million in private
       equity.

Of the 16 firms submitting bids, calls were logged from the former Director’s phones with
8 of the firms during the blackout period, including the four firms deemed to be “finalists”
from which the three successful bidders were selected. He communicated via e-mail with
one of the eliminated firms only to say, “The rules of ethics prevent me from having our
lunch meeting.”

During January 2009 as part of the audit, we interviewed the former Director about
communications with bidders during the blackout period. Initially, he stated that he was
careful not to talk to any of the potential bidders during the period that the Strategic
Partnership was “on the street” for bid. He also stated that he did not recall having any
conversations with offerors during the procurement. We then showed the former Director
his telephone logs. At that time, he amended his prior statements and commented that, if
he had spoken with an offeror, he definitely would not have discussed the procurement on
which he was a TEP member. He advised us that he did not keep records, notes, or other
documentation of his phone calls or other contacts.

As an example of the contacts, at least five emails document communications during the
blackout period between the former Director and the JP Morgan executive referenced
above. Our review of the email string showed that, beginning on October 24, 2008 (during
the blackout period), the former Director was attempting to contact the JP Morgan
executive by phone. The subject line of the emails was, “Can I reac” [reach]. The
JP Morgan executive replied with details of his hotel room number and telephone, his
mobile phone number, and the phone number of his apartment, as well as times when he
would be available. It is unclear from the emails whether the former Director and the
JP Morgan executive ever actually spoke by phone and we do not have specific information
about what topics the former Director planned to discuss. However, on the day that
winners of the strategic partnerships were selected, the email string continued. The subject
line was changed from “Can I reac” [reach] to “Strat partnerships” and the message sent by
the former Director was, “U guys got 900m. 600 real estate 300 private equity.” We
concluded that the email message and subject line provide a strong indication that the
strategic partnerships were to be the topic of the phone conversations between the former
Director and the JP Morgan executive.

During March 2009 we discussed the details of these phone calls and emails with the
former Director, at his request. He asserted that the JP Morgan executive has been his
friend since the mid- 90’s and the discussions did not involve PBGC business or the



OIG Report AUD-2009-5 / PA-08-63-1                                                              5
strategic partnerships. Nevertheless, we noted that the former Director sent an email to a
subordinate, instructing the subordinate to provide the Strategic Partnership RFP directly to
this JP Morgan executive, an act that further links the executive with the Strategic
Partnership process.

The former Director’s explanations about these particular contacts during the blackout
period evolved during the course of our audit. For example, in his April 28 written
statement4 addressing the issues included in this report, he provided a new explanation for
certain contacts during the blackout period for communication with bidders for the
Strategic Partnerships.5 That statement, which is included in its entirety as Appendix B,
contained the following explanation for 5 phone calls and 5 emails with a JP Morgan
executive that occurred between October 24 and October 29, 2008 According to the
statement, “I was working at that time on the McCain presidential team’s potential
transition. I had responsibility for developing lists of names of individuals to be Secretaries
and Under Secretaries at various agencies including Treasury, Commerce, Labor,
Education and HUD. The person I was reaching via these emails was someone I wanted to
put on one of these lists and whose advice I sought about other possible individuals.”6

We attempted to corroborate the former Director’s explanation for his calls and emails to
the JP Morgan executive. We confirmed that the executive was listed as a potential
candidate for cabinet level office on the document titled, “Top Tier Presidential
Appointment Process Overview” as provided to us by the former Director. We spoke with
the leader of the McCain Transition Planning Team to understand the process used by the
former Director in developing the list of names. According to the team leader, the list was
developed through a highly confidential process using public information; any necessary
phone calls were made from the legal offices of the Republican Transition Team
headquarters in Washington DC. The team leader advised that named candidates were not
called as part of the process. This tended to conflict with the former Director’s assertions
about phone calls to the JP Morgan executive.

In a further attempt to corroborate the former Director’s explanation, we identified the
person or company associated with each phone number called on the former Director’s cell
phone and on his direct line during the relevant time period. Except for the calls to the
JP Morgan executive, there were no phone calls to either the homes or businesses of any of
the individuals identified by Mr. Millard as potential candidates for political appointment,
based on the listing he provided us. When we told Mr. Millard the results of our
corroboration efforts, he confirmed he had not contacted any other potential candidate.

4
  We note the former Director’s April 28 statement is unsigned, however, when his attorney forwarded the
statement to the OIG via email he stated: “attached please find a PDF of Mr. Millard's statement. ..., we
submit this statement as final and without restriction as to circulation.” To date, we have not received a
signed copy.
5
  The former Director had previously provided different explanations for these phone calls, including the
wish to discuss a particular news article and a discussion of New York politics; we were also unable to
corroborate those explanations.
6
    Page 5 of Appendix B, Statement of Former PBGC Director Charles E.F. Millard (page 20 of this report).


OIG Report AUD-2009-5 / PA-08-63-1                                                                           6
We advised the current Acting Director and PBGC’s General Counsel about the former
Director's improper contacts with bidders, as well as the post-award assistance with his job
search that he received from an executive of at least one of the awardees, as noted in the
following finding. The General Counsel advised that these facts, taken together, raised
serious ethical concerns of which she would apprise the Board.

Also, according to the General Counsel, the career Board staff requested that PBGC slow
down the implementation of the private equity and real estate allocations of the strategic
partnerships because political appointees are not yet in place to serve as PBGC's Board
Representatives. The General Counsel reports that PBGC is continuing with planning and
training activities contemplated by the contracts.

In another recent procurement, PBGC officials reacted strongly to a much less serious
violation of the prohibition on contact with bidders during the blackout period. A PBGC
employee who was serving as the Chair of a TEP contacted bidders during the blackout
period to seek clarification about their pricing proposals. The employee documented all
contacts and obtained supervisory concurrence with the proposed actions. However, the
Procurement Department Director reported to OIG that the procurement had been
compromised, noting that, “it is a violation of the FAR for any TEP member to contact any
firm during the progress of a procurement regarding any matter involving that procurement.
Once a procurement is on the street, only the Procurement Department may contact any
vendor regarding that procurement in order to ensure that all vendors are treated fairly,
equally, and without bias.” When this occurred, the former Director met with the employee
to reiterate the seriousness of contact with bidders during the prohibited time.

Certain senior level leaders in PBGC asserted their belief that the former Director’s
motivations for making contact with the bidders were inappropriate. While our audit did
not identify evidence of criminal activity by any of the bidders, the former Director’s
improper contacts cast serious doubt on the integrity of the procurement process.

OIG RECOMMENDATION

The PBGC Board should determine whether inappropriate actions of the former Director,
as described in this report, cast enough doubt about the fairness, integrity and openness of
the procurement to warrant cancellation of the strategic partnership contracts. If so, the
Board should instruct PBGC to cancel the contracts. (OIG Control Number: Board-1)

PBGC BOARD RESPONSE

The PBGC Board has asked the Acting Director of the PBGC to provide the Board with his
recommendation for PBGC action in response to the draft report. The Board will review
the Acting Director’s recommendation and ensure that appropriate action is undertaken.

OIG EVALUATION

The Board’s response meets the intent of our recommendation.



OIG Report AUD-2009-5 / PA-08-63-1                                                             7
Finding 2: The Former Director’s Dual Roles Raised Concerns About Impartiality

The former PBGC Director represented the Corporation before the investment community
in person, traveling frequently to New York and maintaining continual telephone contact
with major investment firms. The former Director recounted significantly detailed and
frequent discussions with these firms over a period of time. Contemporaneously, he
assumed de facto responsibility for key procurement activities necessary to implement the
new investment policy, including evaluating many of the same firms with which he
routinely dealt. Although PBGC has not placed a specific prohibition on the Director’s
participation in the procurement process, proper separation of duties would prevent his
service in both roles.

Separation of duties is required for effective management control and the lack of separation
leaves PBGC vulnerable to concerns of real or perceived bias. Due to the former
Director’s frequent contact with bidders coupled with his participation in the procurement
process, senior level staff expressed doubts about the fairness of his decisions and the
selection of winners for the strategic partnership contracts. The former Director’s contact
with bidders allowed some, but not all, to have frequent and in-depth access to a key
procurement decision-maker. Further, the continuing contact provided an opportunity for
some, but not all, bidders to enhance the former Director’s level of confidence in their
firms’ knowledge and skills. Finally, the post-award assistance he received from an
executive of one of the winning bidders raises serious ethical concerns.

The Controls

PBGC’s procurement process is subject to the Federal Acquisition Regulation (FAR) and
PBGC’s implementing guidance. The FAR’s specific regulations are based on guiding
principles which caution that business must be conducted with integrity, fairness, and
openness.

       An essential consideration in every aspect of the System is maintaining the public’s
       trust. Not only must the System have integrity, but the actions of each member of
       the Team must reflect integrity, fairness, and openness…. (FAR § 1.102-2(c)(1)).

FAR § 3.101-1 states:

       Government business shall be conducted in a manner above reproach and, except as
       authorized by statute or regulation, with complete impartiality and with preferential
       treatment for none. Transactions relating to the expenditure of public funds require
       the highest degree of public trust and an impeccable standard of conduct. The
       general rule is to avoid strictly any conflict of interest or even the appearance
       of a conflict of interest in Government-contractor relationships. While many
       Federal laws and regulations place restrictions on the actions of Government
       personnel, their official conduct must, in addition, be such that they would
       have no reluctance to make a full public disclosure of their actions. [Emphasis
       added.]



OIG Report AUD-2009-5 / PA-08-63-1                                                          8
OMB Circular No. A-123, Management’s Responsibility for Internal Control, notes that
appropriate separation of duties is necessary for effective management control. Key duties
and responsibilities should be separated among individuals. GAO’s Standards for Internal
Control in the Federal Government, GAO/AIMD-00-21.3.1, explains that separation of
duties is necessary to reduce the risk of error, waste, or wrongful acts.

De Facto Responsibility for Key Procurement Activities

The former Director was intimately involved in the day-to-day details of the contracts used
to develop and implement the new investment policy. His active participation began before
the first contractor was selected to help develop PBGC’s new investment policy and
continued throughout his tenure at PBGC, despite warnings from his own advisors about
the wisdom of such involvement. Examples of his activities at each stage of the
contracting process include:

   •   Serving on a three-member evaluation panel, with two subordinate employees, to
       select Rocaton as the contractor hired to assist in developing PBGC’s new
       investment policy.
   •   Choosing the TEP members, and serving on the evaluation panel, with two
       subordinate employees, to select Plexus to provide advisory services for the
       development of transition management principles.
   •   Choosing the TEP members, and serving on the evaluation panel, with two
       subordinate employees, to select Ennis Knupp as advisor for the upcoming
       strategic partnership procurement.
   •   Helping draft the Statement of Objectives, including the 13 mandatory
       requirements; leading the bidders’ conference; helping draft the evaluation factors
       through which the winning firms would be selected; choosing the TEP members
       and serving on the evaluation panel, with two subordinate employees, to select
       BlackRock, Goldman Sachs, and JP Morgan as the winning bidders for strategic
       partnerships to invest up to $2.5 billion of PBGC assets.

Responsibility to Represent PBGC

The former Director continued to represent PBGC before the investment community at the
same time that he was serving a significant role in the procurement process, to include
evaluating the contract proposals of those with whom he was in frequent contact.
According to his official position description, one of the Director’s major duties is serving
as chief PBGC spokesperson with the presidents and chief operating officers of major
corporations and heads of various associations. From February 12, 2008 when the Board
approved the new investment policy, through July 31, 2008 when the RFP was issued to
solicit for strategic partners, the former Director’s calendar shows that he met with many
firms who were potential bidders in planned procurements to implement the investment
policy. In some of these meetings, PBGC staff attended with the former Director while in
others the former Director met separately with the Wall Street entities.




OIG Report AUD-2009-5 / PA-08-63-1                                                              9
The former Director also communicated extensively with the investment community by
telephone. Records show that, between July 2007 and October 2008, hundreds of calls
were logged to and from the former Director’s phones with various Wall Street firms,
including hundreds of calls with the successful bidders for strategic partnerships. Some of
the phone calls were very short (less than a minute). The assistants to the former Director
acknowledge making some calls, with the objective of scheduling visits and other routine
administrative activities. Because the former Director did not keep notes or otherwise
document his phone calls, we were unable to conclusively determine how many completed
calls he held with bidders. However, the number of calls made (e.g., at least 172 to
Goldman Sachs, 95 to JP Morgan, and 45 to BlackRock) demonstrate a persistent intention
to speak with these firms rather than mere incidental or casual contact. Except for the
phone calls made during the blackout period as noted in the prior finding, phone contact
between the former Director and bidders would not have been inappropriate, if he had not
been substantively involved in the procurement process.

We asked the former Director for notes or other details to document the nature of the
telephone calls made from his phones. He initially asserted that he had made some of the
calls as part of conducting market research for the various contracts related to the strategic
partnerships. However, we were unable to corroborate his explanation, as he did not
provide any documentation of the information he developed during the market research.
FAR requires agencies to document any market research performed and the PBGC General
Counsel advised the former Director of the need to document his research.

The former Director made multiple phone calls to Goldman Sachs in the three days before
the strategic partnership RFP was issued. He characterized the calls as “intensive market
research,” but acknowledged that there was no documentation of that research. Since
market research is conducted to determine whether there are firms capable of performing
the work the agency requires, it is unlikely that the former Director was conducting market
research, as defined in the FAR. After he left PBGC, we met again with the former
Director to discuss these calls. At that time, he explained that the calls were made to two
Goldman Sachs executives who he asserted were not actually involved in bidding for the
strategic partnership. Neither executive was listed as “key personnel” in Goldman Sachs’
bid. However, the former Director had specifically requested, via email, that the RFP be
sent to one of the Goldman Sachs executives he had described as “uninvolved.” This
email, and others, tends to contradict the former Director’s assertion and links the executive
with the strategic partnership bidding process.

A whistleblower alleged that the former Director contacted certain executives in order to
enhance his future employment prospects. We found that the Goldman Sachs executive
noted above provided active and substantial assistance to the former Director as he
searched for post-PBGC employment. However, in his written statement,7 the former
Director asserted in part “… around the time I became aware of this audit I became aware
of a rumor that I was pursuing the Strategic Partnerships in order to increase my changes at
post-PBGC employment with large financial services firms. This was ridiculous, as I


7
    Page 3 of Appendix B, Statement of Former PBGC Director Charles E.F. Millard (page 18 of this report).


OIG Report AUD-2009-5 / PA-08-63-1                                                                       10
already had numerous contacts at such firms and had worked in senior roles at two of them
in the past.”

Our review of the former Director’s email records disclosed extensive communication with
the Goldman Sachs executive, occurring after the award of the $700 million Strategic
Partnership contract. While we did not identify any evidence that the former Director was
attempting to obtain employment directly with Goldman Sachs (or with any of the winning
firms), we did find 29 emails between a senior Goldman Sachs official and the former
Director, assisting him in his search for employment. For example, the former Director
provided his resume, bio, and six news articles to the Goldman Sachs executive, who in
turn forwarded the materials to others in the financial community, including those with
whom Goldman Sachs had a business relationship.

Employment assistance provided by the Goldman Sachs executive to the former Director
included personal meetings, strategic advice, introductions to potential employers, and help
with meeting arrangements. For example, in one email the executive wrote, “… It was
great to see you this afternoon. I spoke with [the CEO of a financial services firm] after
our mtg. He would love to meet with you in NY. I told him I would forward your info
when I receive it and then you can feel free to coordinate with his assistant at any time after
that. Separately, I spoke with [---] and he is confirmed for tomorrow morning. I will keep
you posted on the others that we discussed. …” The former Director advised us that the
assistance was provided due to a “deep personal relationship” between him and the
executive and did not have any connection with the recent contract award. However, we
concluded that the receipt of employment assistance from a winning bidder raises serious
ethical concerns; the PBGC General Counsel advises she shares these concerns.

As another example of questionable contact, three days before issuance of the RFP, email
records show that the former Director received an email from an executive at JP Morgan on
the subject “Sample Strategic Partnership RFP Questions.” The email included an
attachment comprising ten pages of proposed questions for PBGC procurement officials to
ask bidders for the strategic partnerships during their oral presentations. When we asked
the former Director about this email, he explained that he likely had discussed proposed
questions with several firms, prior to issuance of the RFP. We also asked whether the file
name of the attachment “JPMorgan Sample RFP Questions Strategic Partnership v5.doc”
might indicate that this was the fifth version of an ongoing collaboration. He stated he did
not know. However, he confirmed that he had discussed the potential strategic partnership
in detail, including questions to ask, with parties external to PBGC. We concluded that
allowing some bidders to propose sample questions could offer an unfair advantage to
those bidders. Interacting through discussions and emails with some, but not all, bidders
creates the appearance that those bidders who had prior knowledge of the questions could
be better prepared and therefore more effective in delivering their oral presentations.8

8
  PBGC officials identified an additional instance in which a different bidder provided sample questions.
According to the email, the bidder “appreciated the opportunity…to share our thoughts re additional
questions you might raise in your pending RFP for Strategic Partnerships.” The email contained an
attachment titled “PBGC Sample RFP Questions.doc.” Our subsequent review identified an additional email
from the bidder regarding sample RFP questions.


OIG Report AUD-2009-5 / PA-08-63-1                                                                     11
Alteration of Established Review Criteria

Another example of the former Director’s direct involvement with procurements occurred
when he established an additional review criterion after the evaluation panel issued their
final recommendation. The former Director instructed a top-level official to review the
TEP evaluations of the Fixed Income Investment Manager and the Index Fund Manager
solicitations after the TEP had documented their final conclusions. Senior level PBGC
officials were concerned about this change; the PBGC Chief Management Officer
acknowledged that there was not a specific prohibition against adding such a review, but he
also noted that, “… inserting this during the end of the process rather than at the beginning
brings about risk from an IG review perspective and possible bidders should they find out.”

The Director of Procurement was so troubled by the change in established operating
procedures that she requested a legal opinion to address the issue. In response, the PBGC
General Counsel opined, in part: “… a formal source selection organization is usually
established prior to proposal review. However, the FAR does not prohibit … consulting
with … an advisor at any particular point in the procurement.”

We agree with the General Counsel that the FAR does not specifically prohibit consulting
an advisor. However, our concern arises from the establishment of additional review
criteria that were not established until evaluations had been completed and presumptive
winning bidders identified. A procurement official said that the former Director was
concerned that the TEP members might not see the “big picture” or consider PBGC’s needs
and future direction. In addition, the former Director noted that the reviewer might have
personal knowledge of a negative nature about a key individual or about the bidding firm
that would not be represented in the company’s proposal.

FAR § 15.203 requires that the factors and subfactors used to evaluate bids, as well as their
relative importance, be included in the RFP. PBGC Standard Operating Procedures require
that the factors or criteria and the methodology used to evaluate proposals be identified at
the same time the requirements are defined to allow inclusion in the solicitation package.
The ad hoc review process mandated by the former Director, including asking the senior
official to use personal knowledge as an evaluation criteria, was not anticipated or
described as part of either solicitation.

Because the reviewer was asked to consider any personal knowledge of a negative nature
about a key individual or the bidding firm, the ad hoc review requested by the former
Director created an additional review criterion. Changing a procurement criterion during
the course of a procurement may be viewed as interference with or preference to offerors,
which could result in a challenge to the procurement decision.

Proper separation of duties was not maintained between the former Director’s authorized
roles as spokesman for PBGC and the role he assumed of performing key procurement
activities for government contracts to implement the new investment policy. The former
Director’s performance of incompatible duties made PBGC vulnerable to allegations of
bias, improper influence, or abuse of position.



OIG Report AUD-2009-5 / PA-08-63-1                                                          12
Some PBGC employees familiar with management of the investment portfolio believed
that the former Director made some decisions based on his relationship with certain
industry members and not on the merits themselves. In addition to frequent contacts,
another factor that supported this belief was the speed with which multiple investment
decisions and the subsequent procurements were made. Because the former Director did
not document the reasons for his visits, calls, emails and the market research that he
claimed to have performed, we could not determine whether the former Director’s
communications with Wall Street firms had any impact on his decisions.

The former Director strongly denies that there was anything improper in the dual roles that
he fulfilled. He asserted that he set an aggressive course of action to implement the new
investment policy and that he believed in talking to lots of people to understand what they
have done and to discuss possibilities. He also said that he needed to be directly involved
in the procurements to ensure that they actually took place; his involvement was
appropriate because, in his view, he had the best knowledge of the issues and firms to be
considered.

Advisors to the former Director cautioned him against serving on TEPs, explaining that his
participation could create the appearance that he could dominate the panel, given that the
panel members were all subordinate employees. However, the former Director was also
advised that his participation did not specifically violate any provision of law or regulation.
The former Director concluded that he would participate in the panels, as he did not
consider that his actions would appear to be improper. During the course of this audit, he
confirmed his view that he was free to participate in the evaluation panels, as long as his
participation was not illegal.

RECOMMENDATION

The PBGC Board should require future Directors to ensure appropriate separation of duties,
to include refraining from service on technical evaluation panels and other de facto
procurement activities. Special attention should be given to situations that are likely to
create the appearance of improper influence or bias. (OIG Control Number: Board-2)

PBGC BOARD RESPONSE

The Board agrees with the recommendation and will work with the PBGC to develop
appropriate guidelines.

OIG EVALUATION

The Board’s response meets the intent of our recommendation.




OIG Report AUD-2009-5 / PA-08-63-1                                                           13
                                                                                 Appendix A



OBJECTIVES, SCOPE, AND METHODOLOGY

This interim report is issued as part of our ongoing monitoring of PBGC’s plans for
implementing the new investment policy. Matters came to our attention concerning
possible procurement improprieties in activities to implement the new investment policy.
In response, we developed the following audit objectives to guide our examination of these
matters:

   •   Determine whether the Director’s direct involvement in the procurement process
       compromised the perception of impartiality in contracting for strategic investment
       partners;
   •   Determine whether the Director and other procurement officials made improper
       contacts with offerors during investment management source selections; and
   •   Determine whether Procurement Department standard operating procedures were
       inappropriately modified during investment management procurement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform this audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions, based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. The
audit was conducted between October 2008 and May 2009. Nothing came to our attention
during our field work to cause us to conclude that any procurement officials had improper
contacts during the source selection blackout period, except for the instances noted in this
report.

The following scope and methodology was used in conducting this review. The scope of
our audit includes procurement activities related to the investment policy, from February
2008 through February 2009. We also assessed allegations made by a whistleblower
regarding possible procurement improprieties related to the selection of investment
consultants and managers.

We interviewed the former PBGC Director while he was still in office, certain members of
the Executive Management Committee, and key management officials within the Financial
Operations Department and the Procurement Department. We also met with the former
Director, at his request, to allow him to provide additional comments and clarifications in
relation to the issues described in this report. We agreed to receive a written statement
from him and have attached that statement, in its entirety, as Appendix B of this report.
The statement is unsigned, but was accompanied by a note from the former Director’s
attorney stating, in part, “… we submit this statement as final and without restriction as to
circulation.” Because the statement included certain new information, we performed
additional tests intended to corroborate that information. We also evaluated available
documentation related to the investment transition, with emphasis on the solicitation and
selection of contractors to provide investment services, to include the strategic partnerships.




OIG Report AUD-2009-5 / PA-08-63-1                                                          14
                                                                                 Appendix A

This audit did not include detailed analysis of these materials, but we did look for and
resolve inconsistencies as necessary to achieve our objectives.

To address whistleblower allegations concerning improper contacts with bidders, we
obtained the former Director’s electronic contact list, as well as the phone records for his
direct PBGC phone line, the phone lines of his two assistants, and his government-issued
cell phone. After we determined that he had been in contact with bidders during the
blackout period, we also obtained his PBGC email records.

Our phone record analysis included reviewing the former PBGC Director’s calendar,
including telephone contacts made, and comparing them to his electronic contact list to
identify the contact’s employer and telephone number. Additionally, we verified the
employer and telephone number through internet search services.

PBGC’s Office of Information Technology provided copies of the former Director’s e-mail
records for the May 2007 to January 2009 period. We used automated tools to sort the
emails by dates, companies, and names to identify emails for further review. We reviewed
the emails related to the Strategic Partnership procurement process and to post-award
contact with winning bidders for Strategic Partnership contracts.




OIG Report AUD-2009-5 / PA-08-63-1                                                             15
                                                            Appendix B


         Statement of Former PBGC Director Charles E.F. Millard




OIG Report AUD-2009-5 / PA-08-63-1                                  16
                                                                 Appendix B


            Statement of Former PBGC Director Charles E.F. Millard




OIG Report AUD-2009-5 / PA-08-63-1                                       17
                                                                 Appendix B


            Statement of Former PBGC Director Charles E.F. Millard




OIG Report AUD-2009-5 / PA-08-63-1                                       18
                                                                 Appendix B


            Statement of Former PBGC Director Charles E.F. Millard




OIG Report AUD-2009-5 / PA-08-63-1                                       19
                                                                 Appendix B


            Statement of Former PBGC Director Charles E.F. Millard




OIG Report AUD-2009-5 / PA-08-63-1                                       20
                                                                 Appendix B


            Statement of Former PBGC Director Charles E.F. Millard




OIG Report AUD-2009-5 / PA-08-63-1                                       21
                                                           Appendix C


                       PBGC Board of Directors’ Response




OIG Report AUD-2009-5 / PA-08-63-1                                 22
                                                             Appendix C


                         PBGC Board of Directors’ Response




OIG Report AUD-2009-5 / PA-08-63-1                                   23
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
